December 13, 2010

ROSEMARIE FERNANDEZ
DISTRICT MANAGER, SAN FRANCISCO DISTRICT

SUBJECT: Audit Report – San Francisco District Risk-Based Post Office Audit
        (Report Number FF-AR-11-003)

This report presents the results of our audit of U.S. Postal Service’s financial operations
at two San Francisco District post offices – the              Main Post Office,
       CA; and                      San Francisco, CA (Project Number 10BD014FF000).
Our objective was to determine if the selected internal controls (cash and stamp stock
accountability, local disbursements, miscellaneous expenses, and refunds) were in
place and effective. This self-initiated audit addresses financial risk. See Appendix A for
additional information about this audit.

The                       Post Office and the                    reported $4.3 million and
$379,867 of operating revenue for fiscal year (FY) 2010, respectively.1 We judgmentally
selected these two postal retail units due to several indications of high financial risk
according to the U.S. Postal Service Office of Inspector General’s (OIG) Performance
and Results Information Systems (PARIS) Cost and Controls Model. The model
identified high-risk indicators for the two units related to retail associates’ cash retained
credit,2 retail floor stock,3 local disbursements,4 miscellaneous expenses,5 and refunds.

Conclusion

Based on the items reviewed, the Postal Service was not effectively managing all
financial operations at the two units. Specifically, neither unit was effectively managing
cash and stamp accountability. In addition, the                      Post Office was not
effectively managing local disbursements and the                       was not effectively
managing financial differences. The San Francisco District did not provide sufficient
managerial oversight and/or financial training. As a result, there is an increased risk the
1
  We obtained FY 2010 operating revenue for the                      Post Office and                  from the
Financial Performance Report in the Accounting Data Mart (ADM).
2
  Cash retained credits are the funds clerks retain from the previous business day.
3
  Retail floor stock is the sum of display and loose stamp stock.
4
  Local disbursements include transactions related to local transportation, miscellaneous services, vehicle supply
expenses, and outside printing and reproduction.
5
  Miscellaneous expenses include transactions related to financial differences overages and shortages and floor
stock overages and shortages.
San Francisco District Risk-Based Post Office Audit                                                        FF-AR-11-003



Postal Service could lose cash and stamps without detection and misstate financial
records.

Managing Financial Operations

Management at the                      Post Office did not effectively implement three of
five6 financial operations reviewed and the                   did not effectively
implement four of five7 operations reviewed. Specifically, the supervisors, Customer
Services, did not:8

        Secure the retail floor stock at both units.

        Account for stamp accountability discrepancies at both units.

        Maintain the authorized cash limit at the                                     .

        Research and resolve expenses related to differences in financial transactions
         and maintain a record for the discrepancies in Account Identifier Code (AIC) 247,
         Financial Differences Overage, and AIC 647, Financial Differences Shortage, at
         the                 .

        Maintain supporting documentation for local disbursements at the
              Post Office.

At the                     Post Office, these conditions occurred because the supervisor
was not adequately performing the assigned duties and the postmaster did not provide
sufficient oversight of the financial operations. At the                  , these conditions
occurred because neither the station manager nor the supervisor, who were acting in
their positions, had attended financial training and were unaware of many of the
requirements related to financial operations at a retail unit. In addition, the supervisor
chose not to follow security policies and procedures related to retail floor stock.

District management acknowledged that inadequate oversight of the units and
insufficient training could have contributed to the units’ noncompliance with Postal
Service financial operations. The district manager stated the Pacific Area provides many
financial tools to monitor units. The tools allow the district to drill down to the employee
level, as well as allow the district to act in advance of a situation, rather than react.
District management was using the tools but not to their fullest capabilities. Instead,
they were relying on unit management to perform their duties.

6
  We reviewed the following five financial operations at the                    Post Office: (1) stamp stock security, (2)
stamp tolerance levels, (3) local disbursements, (4) refunds, and (5) miscellaneous expenses.
7
  We reviewed the following five financial operations at the                   (1) stamp stock security, (2) stamp
discrepancies, (3) unit cash authorized limit, (4) miscellaneous expenses, and (5) refunds.
8
  We found errors in the following five financial operations: (1) stamp stock security, (2) stamp discrepancies, (3) unit
cash authorized limit, (4) miscellaneous expenses, and (5) local disbursements. We did not find errors related to
refunds.




                                                            2
San Francisco District Risk-Based Post Office Audit                                                     FF-AR-11-003




As a result, the units did not collect all revenue, implement controls designed to detect
and prevent erroneous and fraudulent accounting transactions, and provide adequate
security over cash and stamps. Specifically, the unit(s) did not:

          Properly secure all retail floor stock, at both units, valued at $37,913.

          Account for retail floor and unit reserve stock overages of $2,237 and $3,024,
                                                                    9
           respectively, and a unit reserve stock shortage of $

          Limit cash to the authorized level of                     exceeding the limit by                 .

          Resolve 22 financial differences with an absolute value totaling $2,920 since
           October 2009.

          Either process local disbursements for travel using Postal Service (PS) Form
           1164, Claim for Reimbursement for Expenditures on Official Business, or the
           eTravel system.10

See Appendix B for our detailed analysis of this topic and Appendix C for the details of
the monetary and other impacts.

We recommend the manager, San Francisco District:

1. Direct the                   Post Office postmaster and the
   manager to secure retail floor stock and resolve the stamp accountability overages
   and shortage.

2. Direct the                             manager to limit cash to the authorized level.

3. Direct the                             manager to maintain a record for and monitor and resolve
   all financial differences.

4. Direct the                Post Office postmaster to require the use of eTravel and
   maintain supporting documentation for reimbursed local travel expenses.

5. Provide financial training to                  management and other San Francisco
   District postal retail unit personnel who are responsible for financial operations and
   have not had any financial training.

6. Provide increased financial oversight to postal retail units in the district by using the
   tools the Pacific Area provides to monitor unit financial management.

9
    The retail floor stock at the              Post Office totaled $33,104. The unit reserve stock at the
        Post Office and               totaled $273,872 and $28,857, respectively.
     eTravel is a web-based system used to process travel expenses.




                                                           3
San Francisco District Risk-Based Post Office Audit                                 FF-AR-11-003



Management’s Comments

Management agreed with the findings and recommendations. The district manager
directed management at both units to secure retail floor stock and resolve the stamp
accountability overages and shortage. In addition, the San Francisco postmaster has
directed the                  manager to limit cash to the authorized level; and record,
monitor, and resolve all financial differences. The district manager stated a postmaster
conducted a follow-up review to verify that employees at the                office request
all travel payments through eTravel.

The district manager stated the district has taken steps to provide sufficient
management oversight by establishing a team of subject matter experts to oversee,
guide, and assist units in ensuring that internal controls are in place and effective.
These experts were also responsible for oversight, follow-up, and abatement of several
of our findings.

The district manager stated that the Pacific Area provided training in October and
November 2010 to the                        manager, as well as other district postmasters,
managers, supervisors, and lead sales associates who have day-to-day financial
responsibilities. District management has scheduled additional training for January 2011
for postmasters and managers who do not perform day-to-day financial tasks but are
still responsible for unit financial operations. In addition, the district will ensure they have
provided adequate training before assigning a manager or supervisor to a unit with
financial oversight.

Lastly, the district manager stated that in order to use the available tools to their fullest
capabilities, senior operations managers and subject matter experts will cover and
review the reports generated from these tools on a periodic basis to allow the units to
address issues in a timely manner. See Appendix D for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                                      4
San Francisco District Risk-Based Post Office Audit                           FF-AR-11-003



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Steven J. Forte
    Drew T. Aliperto
    Susan M. LaChance
    Corporate Audit and Response Management




                                                      5
San Francisco District Risk-Based Post Office Audit                                                    FF-AR-11-003



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations. The term “post office” includes main offices, stations, and branches. The
postmasters or installation heads are responsible for collecting all receipts to which the
offices are entitled, accounting for all funds entrusted to them and ensuring the offices
meet all accounting objectives.

The                     Post Office,                CA, and the                   , San
Francisco, CA, are in the San Francisco District of the Pacific Area and reported
$4.3 million and $379,867 of operating revenue for FY 2010, respectively. We
judgmentally selected these two units based on high financial risk indicators from the
July 2010 PARIS Cost and Control Model. We identified high-risk indicators related to
retail associates’ cash retained credit, retail floor stock, local disbursements,
miscellaneous expenses, and refunds. In addition, based on our analysis of data in the
Enterprise Data Warehouse (EDW), we identified significant financial differences.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the selected internal controls (cash and
stamp stock accountability, local disbursements, miscellaneous expenses, refunds, and
financial differences) were in place and effective at the                   Post Office
and the                   To meet this objective we reviewed the following financial
operations:

     Internal Control
                                                        Scope and Methodology
         Reviewed
     Unit Reserve            We conducted a count of the unit reserve11 and reviewed the two
     Counts                  most recent counts as of September 8, 2010 at both units.
     Floor Stock             We conducted a count of the retail floor and reviewed the three
     Counts                  most recent counts as of September 8, 2010 at both units.
                             We conducted counts of each cash retained credit and reviewed
     Authorized Cash
                             total unit cash to determine if it was within the authorized cash
     Level
                             limit as of September 8, 2010 at the
                             We judgmentally selected and reviewed 11 local disbursement
     Local
                             transactions, valued at $9,143, for the July 2009 through
     Disbursements
                             July 2010 reporting period at the                     Post Office.



11
  All stamps, stamped paper, and philatelic products that have not been consigned to a retail associate or other
accountabilities within the unit.




                                                          6
San Francisco District Risk-Based Post Office Audit                              FF-AR-11-003




   Internal Control
                                                      Scope and Methodology
      Reviewed
                           We reviewed 10 miscellaneous expense transactions, with an
                           absolute value of $37,433, for the July 2009 through July 2010
  Miscellaneous            reporting period at the                   Post Office. We also
  Expenses                 reviewed unit procedures for controlling the 116 transactions in
                           AIC 247/647 with an absolute value of $36,003 for the July 2009
                           through July 2010 reporting period at the
                           We judgmentally selected and reviewed 10 refunds, valued at
                           $6,870, at the                   Post Office, and 15 refunds,
  Refunds
                           valued at $3,178, at the                 , for the July 2009
                           through July 2010 reporting period.

We conducted this performance audit from August through December 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on November 2, 2010, and
included their comments where appropriate.

We relied on data obtained from the Postal Service’s ADM and performed specific
internal control and transaction tests on these systems’ data. We traced recorded
financial transactions to and from supporting documentation and assessed the reliability
of computerized data by comparing the computer records to source documents. We
determined that the data were sufficiently reliable for the purposes of this report. We
used Postal Service instructions, manuals, policies, and procedures as criteria to
evaluate internal controls and data reliability. Finally, we evaluated whether or not the
unit implemented internal controls over financial reporting and safeguarding of assets;
interviewed supervisor and employees; and observed operations.




                                                       7
San Francisco District Risk-Based Post Office Audit                           FF-AR-11-003



PRIOR AUDIT COVERAGE

The OIG issued three financial audit reports for the San Francisco District within the
past 3 years. The reports identified internal control deficiencies such as cash and stamp
accountability; safeguarding of assets; financial differences; and closeout procedures.
The reports made recommendations to address these issues, and management agreed
to take corrective action.

                                     Report       Final Report   Monetary      Other
         Report Title
                                    Number            Date        Impact      Impact
  Fiscal Year 2007               FF-AR-07-140 4/17/2007             $12,988     $10,337
  Financial Installation
  Audit
  Post Office
  Fiscal Year 2009               FF-AR-09-109 3/5/2009                  $0       $1,435
  Financial Installation
  Audit       Post Office
  Fiscal Year 2010               FF-AR-10-003 11/2/2009                 $0           $0
  Financial Installation
  Audit
  Station




                                                      8
San Francisco District Risk-Based Post Office Audit                                                        FF-AR-11-003



                                  APPENDIX B: DETAILED ANALYSIS

Managing Financial Operations

Management at the                        Post Office and the                did not
effectively implement five of six financial operations we examined. Specifically, the
supervisors, Customer Services, did not:12

        Secure the retail floor stock at either units.

        Account for stamp accountability discrepancies at either units.

        Maintain the authorized cash limit at the

        Maintain a record for AICs 247/647discrepancies and monitor and resolve
         financial differences at the              .

        Maintain supporting documentation for local disbursements at the
              Post Office.

Retail Floor Stock Security

Management at both units did not properly secure all of the retail floor stock, valued at
$37,913.13 Specifically:

        Unit personnel at the                      Post Office improperly stored floor stock
         totaling $33,104 in unlocked containers and cabinets located in an unlocked
         vault. Management stated storing the floor stock in this manner was the unit’s
         practice because it is easier for retail associates to retrieve stamp stock.

        Unit personnel at the                   improperly stored floor stock totaling
         $4,809 in an unlocked rolling filing cabinet as well as in Express Mail®
         envelopes, which were sitting in a mail tub located in an unlocked cage. The
         supervisor stated he knew the stock needed to be secured and non-retail
         employees should not have access to the cage; however, he did not want to
         upset the letter carriers, who frequently crowded around and entered the cage
         area while waiting for route information.




12
   We found errors in the following five financial operations: (1) stamp stock security, (2) stamp discrepancies, (3) unit
cash authorized limit, (4) miscellaneous expenses and (5) local disbursements. We did not find errors related to
refunds.
13
   Handbook F-101, Field Accounting Procedures, Section 3-1.1, page 13, September 2010.




                                                            9
San Francisco District Risk-Based Post Office Audit                                                   FF-AR-11-003



Stamp Accountabilities

Management at the units could not account for overages and shortages related to
stamp accountabilities. Specifically:

        Management at the                      Post Office was out of tolerance and could
         not account for overages totaling $2,237 for retail floor stock valued at $33,104
         and $3,024 for the unit reserve stock valued at $273,872. The postmaster and
         supervisor stated they could not explain why the unit had stamp stock
         overages.14

        Management at the                       was out of tolerance and could not account
         for a shortage totaling $300 for the unit reserve stock valued at $28,857. The
         supervisor believed he caused the shortage by not transferring the stamp stock
         from the unit reserve to the retail floor stock before selling it to a customer.
         However, the supervisor was unable to provide documentation to account for the
         shortage.15

Authorized Cash Limit

Management at the                   allowed the unit cash reserve to exceed the
                                        16
authorized cash limit of      by           The supervisor stated he was unaware the
increased cash level needed to be supported by sending a notification letter to the
district.

Miscellaneous Expenses

The supervisor at the                   did not research and resolve expenses related to
differences in financial transactions nor maintain a record of the differences in AIC
247/647. Of the 116 financial differences reviewed from July 2009 through July 2010, 22
with an absolute value of $2,920 had not been reconciled since October 2009.17 The
supervisor stated he was unaware of the requirement to monitor and resolve financial
differences.

Local Disbursements

Management at the                    Post Office did not ensure seven temporary
bargaining employees assigned to the unit had access to the eTravel System to request
reimbursement for local travel expenses.18 Management reimbursed the seven

14
   Handbook F-101, Section 13-9.1, page 208. The retail floor stock has a $0 tolerance.
15
   Handbook F-101, Section 13-9.2, page 209. The unit reserve stock had a $50 tolerance for accountabilities up to
$30,000. The Bayview Station’s unit reserve stock was $28,557.
16
   Handbook F-101, Sections 13-7.1.2 and 13.7.2, page 200.
17
   Handbook F-101, Section 8-6.1, page 90.
18
   http://eagnmnsg704/selfservice/Main_F.jsp?locale=en_US - Bargaining, casual, and temporary employees must
have their travel reimbursement processed via eTravel. Employee must request access to eTravel via eAccess.




                                                         10
San Francisco District Risk-Based Post Office Audit                                            FF-AR-11-003



employees for travel mileage from their primary duty station to the
Post Office for periods beginning October 2009 through February 2010. The unit had
$13,883 in local disbursements for 33 days (between August 2009 and February 2010),
which was the highest local disbursement amount in the San Francisco District and one
of the reasons we selected the unit for review. The postmaster explained that the unit
lost 15 employees during October and November 2009 through normal attrition and
personnel exercising the voluntary early retirement option. As a result, the unit needed
additional personnel daily to assist with operations.

Of the local disbursements totaling $13,883, we judgmentally selected and reviewed
11 days with transactions totaling $9,143. We were able to locate supporting
documentation19 for $8,567 of local disbursements, including reimbursements.
Management could not provide supporting documentation for $576 of $878 (or 66
percent) of local travel transactions on January 23, 2010. Employees who do not have
access to eTravel can use PS Form 1164 for nonrecurring travel. However,
management should require the use of eTravel, given the number of claims, since
eTravel provides better control. If the temporarily assigned employees’ travel expenses
were processed using eTravel, there would be less risk of unsupported local travel
expenses.

Unit and District Financial Management Oversight

Unit and district financial management did not provide sufficient managerial oversight
and/or financial training to personnel at                 Post Office and the


        At the                    Post Office, the postmaster and supervisor have held
         their positions since 2008, and were knowledgeable in financial operations.
         However, the postmaster did not provide adequate oversight of the supervisor
         because she assumed the supervisor was performing her duties. The postmaster
         stated when she arrived at the unit she had to address many issues, such as
         delivery and retail operations and personnel shortages. The postmaster stated
         she was systematically dealing with unit issues, and her first concern was
         ensuring efficient mail delivery. The postmaster further stated when she realized
         the supervisor was not performing her duties, she began to take corrective action
         by issuing letters of warning to the supervisor.

        At the                 , the station manager and supervisor were unaware of
         many financial management requirements. The manager had been at the
                         since July 2010 but had been an officer in charge at another unit
         since January 2009. The supervisor arrived at the unit in October 2009 and had
         previously been a delivery unit supervisor. The supervisor stated he was
         unaware of the requirements because he had not received any financial training.
19
  Handbook F-101, Section 22-2.2.c, page 305. The employees submitted PS Forms 1312, Local Transportation
Payment, and 1164, as supporting documentation for travel reimbursements.




                                                      11
San Francisco District Risk-Based Post Office Audit                             FF-AR-11-003



        The station manager stated she started at the unit after the supervisor arrived
        and did not realize that he had not received financial training.

The district manager acknowledged the district needs to provide more oversight at units
and that the manager, Post Office Operations, for the North Bay, who is responsible for
one of these two units, has approximately 130 units to monitor and cannot supervise
every unit at the appropriate level. She also stated that the district does not have a
process in place to monitor whether or not a supervisor has received training. The
district manager stated the district is in the process of training unit management and
putting a system in place to monitor and hold management accountable for
unacceptable work performance. In addition, the district manager stated that the Pacific
Area Sarbanes-Oxley team is assisting with training employees involved in financial
transactions at the unit level with completion targeted for the second week of November
2010. Postmasters and managers who do not have direct oversight of financial
transaction will attend training by the end of November 2010. (See Appendix D for
further information on the training conducted.)

The district manager stated that the Pacific Area has tools the districts can use to assist
with financial oversight. For example, there are tools that allow units to monitor AIC
247/647 activity, as well as scorecards, dashboards, and unit trends the district can use
to make the process of monitoring cash and stamp accountabilities and local
disbursements easier.

If the Postal Service does not provide managerial oversight of and financial training to
employees responsible for managing financial operations, there is an increased risk the
Postal Service could lose cash and stamps without detection and misstate financial
records.




                                                      12
San Francisco District Risk-Based Post Office Audit                                                   FF-AR-11-003



                       APPENDIX C: MONETARY AND OTHER IMPACTS

                                             Monetary Impacts


           Finding Impact                    Category                   Post                         Total
                                                                    Office
     Retail floor stock        Recoverable revenue
                                                                       $2,237                 - $2,237
     overage                   loss20
     Unit reserve              Recoverable revenue
                                                                        3,024                 - 3,024
     stock overage             loss
                               Recoverable
     Unsupported
                               unsupported                                 576                - 576
     refunds
                               questioned cost21
     Unresolved                Recoverable
     financial                 unsupported                                     -      $2,733 2,733
     difference                questioned cost22
                               Recoverable
     Unit reserve
                               supported questioned                            -            00             00
     stock shortage
                               cost23

     Total                                                             $5,837

                                                Other Impacts


           Finding Impact                   Category                   Post                          Total
                                                                   Office
     Unsecured retail          Accountable items at
                                                                     $33,104          $4,809 $37,913
     floor stock               risk24
     Unit cash
     retained over             Assets at risk25 -
     authorized limit

     Total $33,104


20
   Revenue that can be collected for goods delivered or services rendered.
21
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations. There was no
adequate documentation supporting these costs.
22
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations. There was no
adequate documentation to support these costs. The $2,733 financial differences amount represents only the net
shortage transactions.
23
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
24
   Accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of inadequate
internal controls.
25
   Assets (for example, cash, stamps, and money orders) that are at risk of loss because of inadequate internal
controls.




                                                        13
San Francisco District Risk-Based Post Office Audit         FF-AR-11-003



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                      14
San Francisco District Risk-Based Post Office Audit        FF-AR-11-003




                                                      15
San Francisco District Risk-Based Post Office Audit        FF-AR-11-003




                                                      16
San Francisco District Risk-Based Post Office Audit        FF-AR-11-003




                                                      17
